                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




AUDIT REPORT
The Strategic Petroleum Reserve's Drawdown
Readiness




 DOE/IG-0916                         July 2014
                                 Department of Energy
                                   Washington, DC 20585

                                          July 10, 2014


MEMORANDUM FOR THE SECRETARY

FROM:                   Gregory H. Friedman
                        Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Strategic Petroleum Reserve's
                         Drawdown Readiness"

BACKGROUND

The Department of Energy's Strategic Petroleum Reserve (Reserve) has the largest stockpile of
emergency crude oil in the world. It exists foremost as an emergency response tool the United
States may use if confronted with threatening disruption in oil supply. Established by the Energy
Policy and Conservation Act of 1975 and in the aftermath of the 1973 - 1974 oil embargo, the
Reserve's current inventory of approximately 691 million barrels of oil is stored in a series of
underground salt caverns located across four sites in Louisiana and Texas. This inventory is a
critical component of the United States' International Energy Agency obligation to maintain
emergency oil stocks equal to at least 90 days of net imports.

The Reserve's primary energy security mission is to maintain drawdown readiness to mitigate the
impact of a severe crude oil supply disruption. To achieve this goal, the Reserve must be
prepared to promptly commence operations and schedule the flow of crude oil to refineries, even
in the midst of a major disaster. According to the Department's Strategic Petroleum Reserve
Technical and Performance Criteria, should the President order an emergency release of oil, the
Reserve must conduct a sales competition, select offers, award contracts and be prepared to
begin the flow of oil within 13 days. If required by sales and delivery parameters, the Reserve
must achieve its maximum sustained drawdown rate within 15 days of receiving such direction.
The Reserve's sustained rate is the maximum rate at which the Reserve can offset a crude oil
supply disruption over a 90-day period. We initiated this audit to determine whether the
Department maintained the Reserve in a manner to ensure drawdown readiness and meet mission
requirements.

RESULTS OF AUDIT

We determined that the Department generally maintained the Reserve in a manner to ensure
drawdown readiness. Yet, we noted that it was not fully successful in meeting all of its
operational performance criteria.
In each of the Presidentially-directed drawdowns completed to date, the Reserve responded as
required, providing oil in emergencies at the rate needed to satisfy buyer demand. Further, in
March 2014, the Department initiated a test sale of approximately 5 million barrels of oil,
generating $500 million in revenue. According to the Department, the oil was released to allow
it to assess the capabilities of a number of recent changes in the pipeline infrastructure.
However, we found that due to the suspension and deferral of various maintenance and
remediation activities, the Reserve was unable to achieve the maximum drawdown rate specified
in its performance criteria, could not store oil at its full capacity, and had not ensured that its full
inventory was available for drawdown. Specifically:

     •   The Reserve was unable to achieve its maximum 90-day sustained drawdown rate of
         4.415 million barrels per day. Rather, the maximum sustained rate, as of March 2014,
         was 4.25 million barrels per day, approximately 165,000 barrels per day below the rate
         specified in the performance criteria. Moreover, even this drawdown rate was at risk
         due to the impact of required cavern remediation.

     •   The Reserve's authorized fill levels were compromised by the suspension of a cavern
         capacity maintenance program. Because the Reserve is currently under capacity, the
         suspension did not have an immediate impact. However, our analysis indicates that the
         Reserve would be unable to replace the more than 35 million barrels of oil sold since
         2011, without compromising capacity maintenance activities.

     •   The suspension of a program designed to ensure that oil complied with state and Federal
         regulations prior to delivery adversely affected the amount of oil available for
         drawdown. Reserve officials estimated that suspension of the program could
         temporarily reduce the inventory of oil available for emergency drawdown by as much
         as 70 million barrels or approximately 10 percent of total inventory.

These conditions occurred, in part, because the Department had not performed a current,
extensive assessment and therefore, were not fully cognizant of the Reserve's long-term
sustainability. Budget cuts also contributed to the suspension of maintenance activities and
resulted in the failure to maintain established drawdown rates and capacity. Absent specific
budget authority, we believe the Reserve's decreasing budget may not accommodate vital
maintenance activities. In addition, the Department had not recently assessed the Reserve's
performance criteria nor redefined a long-term sustainable fill level for the Reserve.

The current value of the Reserve's petroleum inventory is approximately $70 billion. Given this
fact and the importance of the Reserve to national security, it is essential that the Department
properly maintain the Reserve in a manner that ensures that it operates as intended and is
sustainable well into the future. Well-developed plans and strategies could help ensure that the
Department's decisions take into account the current effect of deferring required remediation
efforts, as well as associated financial impacts. We believe that the Department can improve its
long-range planning and have made several recommendations that, if implemented, should help
ensure that the Reserve fully meets its mission requirements and maintains operational readiness
in the most efficient manner.


                                                   2
MANAGEMENT REACTION

Management concurred with the report's recommendations and agreed that a long-range strategic
review was needed to ensure that the Reserve could meet current and future energy and
economic security goals. We considered management's planned actions responsive to our
recommendations.

Management's comments are included in Appendix 3.

Attachment

cc: Deputy Secretary
    Chief of Staff
    Assistant Secretary, Office of Fossil Energy
    Chief Financial Officer
    Principal Deputy Assistant Secretary, Office of Fossil Energy
    Deputy Assistant Secretary, Office of Petroleum Reserves
    Director, Office of Management




                                               3
AUDIT REPORT ON THE STRATEGIC PETROLEUM
RESERVE'S DRAWDOWN READINESS


TABLE OF CONTENTS

Audit Report

Details of Finding…………………………………………………………………………………1

Recommendations…………………………………………………………………………………6

Management Response and Auditor Comments…………………………………………………..7

Appendices

  1. Objective, Scope and Methodology……………………………………………………….8

  2. Prior Reports………………………………………………………………………………9

  3. Management Comments…………………………………………………………………10
THE STRATEGIC PETROLEUM RESERVE'S DRAWDOWN
READINESS
OPERATION OF THE STRATEGIC PETROLEUM RESERVE

We determined that the Strategic Petroleum Reserve (Reserve) was generally maintained in a
manner to ensure operational readiness; however, it was not fully successful in meeting all of its
operational performance criteria. For example, due to the suspension and deferral of certain
maintenance and remediation activities, the Reserve was unable to achieve its maximum
drawdown rate. In addition, maintenance issues decreased storage capacity and the amount of oil
available for drawdown.

Drawdown Rate

Because of deferred maintenance of a storage tank, the Reserve was unable to achieve its
maximum 90-day sustained drawdown rate, as stipulated by performance criteria. The maximum
sustained rate represents the maximum average drawdown rate at which the Reserve can offset a
significant, long-term crude oil supply disruption over a 90-day period. The performance criteria
require the Reserve to be capable of drawing down and delivering oil at a maximum sustained
rate of 4.415 million barrels per day until 90 percent of its inventory is depleted. However,
according to the Department of Energy's (Department) March 2014 evaluation of the Reserve's
drawdown capability, the Reserve was not capable of achieving that rate. Rather, the maximum
sustained rate achievable was 4.25 million barrels per day, approximately 165,000 barrels per
day below the rate specified in the performance criteria. According to Reserve officials, needed
repairs on a tank used to push oil to the pipelines had been deferred because of budget cuts.
Without this tank, taken out of service in 2010, the Reserve's maximum sustained rate had not
and will not be achievable until the repairs are made. At the time of our audit, the estimated
$7.4 million repair remained uncorrected; however, funding to complete the project had been
included in the Fiscal Year (FY) 2015 budget request.

Storage Capacity

The suspension of the Reserve's capacity maintenance operation compromised the ability to
maintain its current authorized fill levels. The Reserve, in its current configuration, was
designed to store 727 million barrels of crude oil in its 62 caverns. Over time, however,
naturally occurring geological forces continuously reduce cavern storage capacity, a
phenomenon known as "creep." Each cavern was originally structured with a certain amount of
excess capacity to accommodate this creep without compromising the authorized fill levels, but
that excess has since been exhausted. Alternatively, the Department can counteract the cavern
creep by injecting water into the caverns, a process known as leaching, to restore the lost
capacity. While the Department had been monitoring the capacity-reducing creep for years, it
did not commence its capacity maintenance operation program, which relied on leaching, until
sometime after the Reserve reached full capacity in 2009. Department officials stated that a
leaching program was not initiated earlier because, although the Energy Policy Act of 2005 had
authorized the Reserve to expand to 1 billion barrels, in 2011, before expansion materialized,
Congress rescinded all funds previously appropriated for expansion activities. At full capacity
for the first time in its history and with no plans of expanding, reductions in the Reserve's excess




Details of Finding                                                                          Page 1
space became a critical issue. In its 2010 and 2011 reports to Congress, the Department
estimated that the Reserve's excess storage capacity would be depleted sometime between 2012
and 2013.

The Reserve's critical capacity issue was temporarily alleviated by a Presidentially-directed
drawdown in 2011, and the commencement of the leaching program. In response to Libyan
unrest, the President directed a sale of oil, which freed approximately 30 million barrels of
storage capacity and returned $3.3 billion to the Treasury. This excess space allowed the
Department to begin its leaching program, and between November 2011 and July 2013, the
program restored 11 million barrels of excess space at a cost of approximately $6 million.
However, while these actions provided near-term relief, they were not a long-term solution.
Citing budget cuts, the Department suspended the leaching program in FY 2013, after less than
2 years of operation.

The Department submitted a budget request of $1.5 million to allow a limited leaching program
to resume in FY 2015, but the program remained suspended in FY 2013 and FY 2014. At its
current under-capacity inventory of 691 million barrels, the program's suspension did not have
an immediate impact. However, our analysis indicates that the Reserve would be unable to
replace the oil sold since 2011, without compromising capacity maintenance activities. That is,
replacing the oil would eliminate most of the excess capacity that is required for leaching
activities. While the FY 2015 budget request will help slow the loss of cavern storage capacity,
it is short of what is needed to fully offset the effects of cavern creep. Reserve officials
estimated that without intervention, cavern creep could reduce volume by as much as 2 million
barrels per year.

Oil Available for Drawdown

Citing a funding rescission, the Department also suspended its de-gasification operation, a
process required to reduce oil vapor pressure, an action that reduced the amount of oil the
Reserve had available for drawdown. Vapor pressures of the crude oils tend to increase with
time due to the combined effects of geothermal heating and gas intrusion from the salt
surrounding the storage caverns. While not a problem when the crude oil is stored underground,
dangerous gases are released when the oil is brought to the surface unless the oil vapor pressure
and temperature are reduced. To ensure that the Reserve's oil is maintained in a delivery-ready
state, the Department began de-gassing the sites on a rotational basis in 2004.

By 2011, the Department had successfully de-gassed two sites and budgeted $11.9 million to
move the de-gasification plant to a third site. However, according to Department officials, a
$15 million funding rescission in FY 2011 resulted in a suspension of the de-gassing program
prior to its move to the third site. Consequently, that site's crude oil inventory, an estimated
216 million barrels or nearly one-third of the Reserve's inventory, currently exceeds vapor
pressure delivery guidelines for anything other than a Presidentially-directed drawdown. The
Department could employ costly alternative means to lower vapor pressure in the event of an
emergency situation. For instance, Reserve officials report that the cost of using alternative
means of vapor pressure mitigation could exceed $64 million at one site alone in the event of a
90-day maximum-rate drawdown. Further, those means are less effective during the hot summer



Details of Finding                                                                       Page 2
months when cooling water is not available to bring the oil down to a safe temperature. In that
case, Reserve officials estimated that the inventory of oil available for an emergency drawdown
could be reduced by as much as 70 million barrels during the months of July and August. The
Reserve currently plans to resume de-gasification at that site in July 2014; however, completing
that operation will require more than 4 years.

Management of the Strategic Petroleum Reserve

These conditions occurred, in part, because the Department had not performed a current,
comprehensive assessment of the Reserve's long-term sustainability. In addition, the Department
had not recently assessed the Reserve's performance criteria nor defined a long-term fill level the
Reserve could maintain.

                          Planning for Long-Term Sustainability

We determined that the Department had not performed a current, detailed assessment of the
Reserve's long-term sustainability. The last major assessment of the Reserve's mission readiness
was the Life Extension Program initiated in 1995. The objective of that $300 million program
was to ensure that aging, above-ground equipment would be properly maintained and available
to support drawdown readiness through 2025. While this reflected a forward-thinking strategy at
the time, it was limited in that it did not evaluate the below-ground storage structures and
equipment, such as the caverns, pipes and wells. As geological issues compromising cavern
integrity and capacity have emerged in recent years, the need for long-term planning and
budgeting strategies has become even more vital.

Long-term strategies are especially important to allow the Department to prioritize its activities
when faced with funding reductions. In the last 5 years, the Reserve's operations and
maintenance budget decreased from $170 million to $138 million. Yet during that same time
requirements increased. For instance, both the cavern diagnostics and remediation program and
the leaching program were initiated within the last 5 years. With the new programs now
competing for an already decreasing operations and maintenance budget, the Department was
obliged to prioritize maintenance activities, resulting in required maintenance activities being
unfunded and deferred.

The cavern diagnostics and remediation program, in particular, recently caused the Department
to change its strategies for managing the Reserve, and significantly contributed to the Reserve's
budgetary constraints. This program, implemented in 2009 following a change in state
regulations, is an extensive and costly program and was described by Federal officials as the
highest priority maintenance project at the site. Reserve officials stated that failure to repair
defects in a timely manner could result in structural compromise of the caverns and potential oil
leaks from fractured wells. By July 2013, the Department had expended approximately
$32 million on cavern diagnostics and remediations, and by our estimates it will spend an
additional $38 million through FY 2016. Reserve officials expect these expenses to continue
well into the future as the equipment continues to age.




Details of Finding                                                                         Page 3
                                     Performance Criteria

Despite changing requirements and circumstances, the Department had not reassessed parts of its
performance criteria in 18 years, nor had it estimated the impacts of not meeting performance
requirements. For example, the criteria for the Reserve's current maximum sustained rate were
established in 1996 in conjunction with the Life Extension Program. However, in 2013, average
net imports were approximately 2.3 million barrels per day lower than they were in 1996, and the
Reserve's inventory was more than 130 million barrels higher. Despite these changes, the
Department had not reevaluated the effectiveness of its drawdown rate, reassessed its
expectations for the Reserve or determined what an acceptable range of performance would
be. According to Reserve officials, the established rate was not based on constantly varying
import needs and had not been adjusted due to changing net imports. A reassessment of
performance criteria would help ensure that the Reserve's mission is relevant to the needs of the
United States and consistent with the Department's goals, as well as aid in the planning and
prioritizing of activities in light of budgetary constraints and changing geological conditions.

                                        Defined Fill Level

Similarly, the Department had not defined a maximum fill level the Reserve can maintain under
current circumstances. As noted, the Reserve had not replaced the oil sold since 2011, leaving
the Reserve 36 million barrels under its authorized storage level. While this under-capacity
status provides the excess storage volume needed to perform leaching activities, it is unclear if,
and how, the Department could accommodate the oil if it were to be replaced. If the Department
replaces the oil, then leaching activities, currently suspended until at least 2015, would be in
jeopardy of being postponed even further into the future due to inadequate cavern space to
perform the activity. However, cavern creep would continue to reduce the storage volume.
Defining a fill level the Reserve can maintain at current budget levels would ensure that the
Department maintains an appropriate inventory at all times.

Operational Efficiency

As of June 2014, the Reserve had an inventory of oil with a market value of more than
$70 billion. It is essential that the Department properly maintain the Reserve in a manner that
ensures it can operate as intended and is sustainable well into the future. Without fully
developed long-term plans and strategies, as well as appropriate metrics, the Department cannot
ensure that it is prioritizing activities and responding to budget constraints in the most efficient
manner. Further, an assessment of the Reserve's goals and capabilities will allow the
Department to define performance criteria which is more meaningful given changing conditions
and needs of the United States.

According to the Department, it had recently taken steps to assess changes in its distribution
capabilities. In March 2014, the Department initiated a test sale of approximately 5 million
barrels of oil, generating approximately $500 million in revenue. According to the Department,
the oil was released over a 40-day period in April and May, and the release allowed them to
assess the capabilities of a number of recent changes in the pipeline infrastructure. Evaluating
changes in infrastructure is a positive step, but without additional strategies that reflect current



Details of Finding                                                                           Page 4
and changing conditions, the Department cannot ensure that the Reserve fully meets its mission
requirements and maintains operational readiness in the most efficient manner. We believe that
additional analysis of the Reserve's long-term readiness is needed to ensure that the Reserve
retains its status as a vital tool for the security of the United States' economy and energy needs.




Details of Finding                                                                          Page 5
RECOMMENDATIONS
To its credit, during our audit Department officials sought to address the challenges the Reserve
faces. In particular, Reserve officials chartered a working group to investigate issues associated
with storage caverns and wells, and to identify options to mitigate the loss of storage capacity.
In addition, the Department's Office of Petroleum Reserves recently chartered a second working
group to identify long-term critical major maintenance requirements and to develop a path for the
next phase of the Reserve's life extension plan. The Department acknowledged that the issues
addressed by the two working groups need to be considered in conjunction with a broader,
long-range review of the Reserve.

While these actions are a positive step in mapping out the future direction of the Reserve, we
believe that further action is necessary. To that end, we have made the following
recommendations that, if implemented, should help maintain the Reserve's mission performance.
To improve the efficiency of the Reserve's operations, we recommend that the Assistant
Secretary for Fossil Energy:

    1. Perform a long-range strategic review of the Reserve to ensure that it is best configured
       to respond to the needs of the Unites States now and into the future, to include:

            a. Assessing the current objectives of the Reserve, taking into consideration the
               likelihood and severity of potential supply disruptions as well as the systems
               impacted by geological challenges, and determining how best to meet those
               objectives;

            b. Performing a review of the Reserve's distribution capability and drawdown
               criteria to ensure that it remains relevant to the needs of the United States and
               consistent with the Department's objectives; and

            c. Defining a crude oil fill level the Reserve can reliably maintain, considering
               budgetary constraints, ongoing and future maintenance requirements, and
               historic utilization.

    2. Quantify and communicate, in its budget requests and annual reports to Congress, the
       Reserve's funding needs to ensure its long-term sustainability.




Recommendations                                                                            Page 6
MANAGEMENT RESPONSE
Management concurred with our recommendations and identified corrective actions to address
the recommendations. Regarding Recommendation 1, management agreed that a broad, long-
range strategic review of the Reserve was needed, but given the potentially significant
ramifications of the results, it was unclear at this time whether the Department's Office of Fossil
Energy should lead this review, whether it should be led by a different office within the
Department, or by an outside agency with Departmental support. Management stated that it
would initiate discussions with Department and Administration leadership to determine the
appropriate course of action, and estimated that a decision would be reached by August 1, 2014.

Regarding Recommendation 2, management stated that it would continue to evaluate funding
levels necessary to ensure the Reserve's mission objectives and long-term sustainability could be
accomplished, and would continue to communicate these needs through the appropriations
process, annual reports to Congress, and subject matter briefings.

AUDITOR COMMENTS
The Department's planned corrective actions are responsive to our recommendations.

We believe that management's initiative to solicit other Department and Administration officials
to determine an appropriate path for a strategic study is prudent given the national security
implications of the Reserve. Further, we agree that programmatic challenges and funding
requirements should be clearly expressed in budget requests and other communications with
interested parties. Management's comments are included in Appendix 3.




Management Response and Auditor Comments                                                    Page 7
                                                                             APPENDIX 1

                  OBJECTIVE, SCOPE AND METHODOLOGY
Objective

The objective of the audit was to determine whether the Strategic Petroleum Reserve (Reserve)
was maintained in a manner to ensure drawdown readiness and meet mission requirements.

Scope

The audit was performed from December 2012 through July 2014. We conducted work at the
Reserve in New Orleans, Louisiana; the Bayou Choctaw Storage Site in Iberville Parish,
Louisiana; and obtained information from the Department of Energy's Office of Petroleum
Reserves in Washington, DC. The audit was conducted under Office of Inspector General
Project Number A13OR013.

Methodology

To accomplish the audit objective, we:

    •   Reviewed laws, regulations, and policies and procedures relevant to drawdown
        readiness;

    •   Held discussions with the Reserve Project Management Office and contractor officials;

    •   Interviewed key personnel at the Office of Petroleum Reserves; and

    •   Evaluated and analyzed Reserve reports related to prior drawdowns, drawdown
        capability, drawdown rates, storage capacity and vapor pressure.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed significant
internal controls and compliance with laws and regulations to the extent necessary to satisfy the
audit objective. In particular, we assessed the Department's implementation of the GPRA
Modernization Act of 2010. While we identified concerns with certain metrics, we determined
the Department had established performance measures related to the Strategic Petroleum
Reserve. Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit. We relied on a limited
amount of computerized data to perform fieldwork; however, it did not materially support the
findings, conclusions or recommendations of the audit objective. Since computer-processed data
was determined not to be integral in supporting the findings, conclusions, or recommendations of
the audit objective, a reliability assessment was not performed.

Management waived an exit conference.


Objective, Scope and Methodology                                                         Page 8
                                                                               APPENDIX 2

                                     PRIOR REPORTS

   •   Inspection Report on Alleged Storage Capacity Concerns at the Strategic Petroleum
       Reserve (INS-L-12-06, September 2012). The Office of Inspector General received a
       complaint alleging that the Department of Energy (Department) and DM Petroleum
       Operations Company intentionally overfilled the Strategic Petroleum Reserve (Reserve)
       and were awarded big bonuses to fill the Reserve to its authorized storage capacity. The
       complaint further alleged that filling the Reserve to its authorized storage capacity played
       a role in a July 2010 fatality at one of the Reserve's sites. The inspectors did not
       substantiate the allegations. Although the inspectors had not found that the Reserve had
       been overfilled, they noted that the Department was in the process of addressing technical
       concerns that could affect the ability to sustain authorized storage levels. Based on the
       results of the review, no recommendations were made.

   •   Audit Report on Department of Energy's Receipt of Royalty Oil (DOE/IG-0786, January
       2008). The auditors concluded that the Department had not implemented an effective
       internal control system over the receipt of royalty oil at the market centers. Specifically,
       the Department had not: (1) Resolved discrepancies between scheduled oil deliveries and
       contractor claimed receipts at the market centers; (2) Ensured that documentation
       adequately supported royalty oil receipts; and (3) Addressed the vulnerabilities associated
       with contractors acting as both the shipping agent for the Department of Interior's
       Mineral Management Service and receiving contractor for the Department.

   •   Special Report on Expansion of the Strategic Petroleum Reserve (DOE/IG-0767, June
       2007). The review found that the Department and its contractor analyzed all available
       well and seismic data related to the Bruinsburg site and augmented this information with
       additional seismic tests. The auditors found, as well, that there were inherent
       uncertainties involved in the process of estimating the size of the salt domes. Therefore,
       the exact size and shape of the Bruinsburg salt dome was not fully known. Professional
       geologists have interpreted the available data differently and the auditors were not able to
       resolve these differences of opinion.

   •   Audit Report on The Department of Energy's Use of the Strategic Petroleum Reserve in
       Response to Hurricanes Katrina and Rita (DOE/IG-0747, December 2006). The auditors
       found that the Department used the Reserve and its assets with great effectiveness to
       address emergency energy needs in the crisis surrounding Hurricanes Katrina and Rita.
       Despite being in the path of the hurricanes' destruction, the Reserve promptly fulfilled
       requests for oil from refineries suffering from storm-induced supply shortages. Within
       4 days of Hurricane Katrina's landfall, oil was sent to requesting refineries. Overall, the
       Reserve provided almost 21 million barrels of crude oil to refiners through loans and
       sales. To their credit, the Reserve's management and staff reacted magnificently under
       extremely difficult circumstances.




Prior Reports                                                                              Page 9
                                            APPENDIX 3

                      MANAGEMENT COMMENTS




Management Comments                              Page 10
                      APPENDIX 3




Management Comments        Page 11
                      APPENDIX 3




Management Comments        Page 12
                                        FEEDBACK
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
